s =a
ea eet dd delete troutman!
Chicago, IL 60606

sanders

troutman.com

Misha Tseytlin
misha.tseytlin@troutman.com

September 6, 2019
VIA ELECTRONIC FILING AND FEDERAL EXPRESS

Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States

1 First Street, N.E.

Washington, D.C. 20543

Re: California Trout, et al. v. Hoopa Valley Tribe, et al., No. 19-257
Dear Mr. Harris:

| represent Respondent-Intervenor PacifiCorp in the above-referenced case. The Petition for a
Writ of Certiorari was docketed on August 26, 2019, and PacifiCorp's Brief in Opposition is due
on September 27, 2019. Pursuant to Rule 30.4, | respectfully request a thirty (30) day extension
of time to file a Brief in Opposition to the Petition.

The attorneys who represent PacifiCorp in this matter, including myself, have substantial
professional commitments over the next several weeks, which will complicate our ability to
prepare a thorough Brief in Opposition to the Petition. These commitments include several merits
briefing deadlines in the United States Court of Appeals for the Second Circuit and the Wisconsin
Supreme Court, as well as several deadlines relating to matters before the Federal Energy
Regulatory Commission and the United States Environmental Protection Agency.

Accordingly, | respectfully request a thirty (30) day extension of time to file a Brief in Opposition
to the Petition.

Respectfully submitted,
ye __-
ae Za
Misha Tseytlin
cc: Andrew H. Erteschik
Noel J. Francisco

Thane D. Somerville
